~"~~'~ s..vic~~s.ks.



5 Jæ.                            DEPARTMENT OF
                                 DEPARTMENT OFHEALTH
                                               HEALTH& HUMAN SERVICES
                                                     & HUMAN SERVICES                                                             Office
                                                                                                                                  Office of
                                                                                                                                          ofInspector
                                                                                                                                             InspectorGeneral
                                                                                                                                                      General

~"ó,
 ""~,
      ~l­
     l..If'd3C
                                                                                                                                  Washington, D.C.
                                                                                                                                  Washington, D.C. 20201

                                                                                                                                                   20201




                                                                               JaN 232009
                                                                               '.23  209


                       TO:
                       TO:	 ThomasThomas
                                   R. Frieden,   M.D.,
                                         R. Frieden,    M.P.H.
                                                     M.D., M.P.H.
                                          Director
                                          Director
                                          Centers for Disease
                                                      Disease Control
                                                              Control and
                                                                      and Prevention
                                                                          Prevention


                       FROM:
                       FROM:1::f;.
                         /~:;~ty
                                   ~
                                   l;t; ~            Inspector General for Audit Services
                                  /~:;~ty Inspector General for Audit Services



                       SUBJECT:	Review
                       SUBJECT:   Reviewof of Vermont's
                                           Vermont's    Pandemic
                                                     Pandemic     InfluenzaExpenditues
                                                                Influenza   Expenditures
                                                                                       forforthe
                                                                                               thePeriod
                                                                                                   PeriodAugust
                                                                                                          August31,
                                                                                                                 31,
                                                      30, 2008
                                  2005, Through June 30,  2008 (A-01-08-01500)
                                                               (A-OI-08-01500)


                       Attached is an advance copy of          of our final report onon Vermont's
                                                                                        Vermont's pandemic
                                                                                                    pandemicinfluenza
                                                                                                             influenza(pan
                                                                                                                        (panflu)
                                                                                                                               flu)
                       expenditures for
                       expenditures         for the
                                                 the period
                                                     period August
                                                            August 31,2005,
                                                                         31,2005, through
                                                                                   through June
                                                                                            June 30,2008.      willissue
                                                                                                 30, 2008. We wil   issue this
                                                                                                                           this report
                                                                                                                                report to
                       theVermont
                       the  Vermont
                                  Deparment Department
                                            of            of Health,
                                                             Health,      Office
                                                                     Office of 
 of Public Health Preparedness (the
                                                                                                               (the State
                                                                                                                    State agency),
                       within 55 business
                       within                     days.
                                    business days.



                       The Centers
                            Centers for
                                      for Disease
                                          Disease Control
                                                   Control and
                                                             and Prevention
                                                                  Prevention (CDC)
                                                                               (CDC)provides
                                                                                         providesfunding    to States,
                                                                                                    fuding to  States, territories,
                                                                                                                        territories,
                       and certain large cities through cooperative agreements to improve preparedness and response
                       capabilities for
                                     for bioterrorism and other public health
                                                                           health emergencies.       Beginning in
                                                                                   emergencies. Beginning        in 2005,
                                                                                                                    2005, Congress
                       appropriated
                       appropriated funds    specificallytotoupgrade
                                       fuds specifically      upgradecapabilities
                                                                         capabilities to
                                                                                       to prepare
                                                                                          prepare for
                                                                                                   for and
                                                                                                       and respond
                                                                                                            respond toto pan
                                                                                                                         pan flu.
                                                                                                                              flu.
                       Through
                       Through the existing cooperative agreements, CDC awarded $500 milion in pan flu fuding in
                                 the  existing cooperative    agreements,   CDC    awarded    $500   million in pan  flu  funding
                       three phases.
                             phases. TheThe State
                                            State agency
                                                  agency received
                                                            received aa total
                                                                        total of
                                                                              of $2,362,016
                                                                                 $2,362,016 for the three phases.

                       Our
                       Our objective
                            objective was
                                      was to
                                           to determine   (1) the
                                              determine (1)    the extent
                                                                   extenttotowhich
                                                                             whichthe
                                                                                   theState
                                                                                       Stateagency
                                                                                             agencyspent
                                                                                                    spentits
                                                                                                          itspan
                                                                                                              panflu
                                                                                                                  flufunding
                                                                                                                      fuding
                       and
                       and (2)
                           (2) what
                               what types
                                     types of costs it charged to the pan flu award and whether these costs complied with
                       Federal
                       Federal cost requirements.

                       As
                       As of of
                             JuneJune    30,2008,
                                  30, 2008,              thehadState
                                            the State agency            agencyofhad
                                                                 spent $1,322,798    
     spent $1,322,798 of the   the $2,362,016
                                                                                                                         $2,362,016 ininpan
                                                                                                                                         panflu
                                                                                                                                             flufunding
                                                                                                                                                 fuding
                       that
                       that itit received
                               received        from
                                        from CDC.       CDC.
                                                  The unspent       The unspent
                                                              fuds totaled $1,039,218, orfunds    totaled
                                                                                          44 percent of 
  $1,039,218, or 44 percent ofthethe
                       cumulative        awarded        amount.        The     State   agency
                       cumulative awarded amount. The State agency attributed the unspent fuds      attributed  the unspent funds  to delays in
                       receiving
                       receiving supplemental
                                       supplemental guidance and funding           funding from  from CDC for  for Phases I and II and to Vermont's
                       legislative
                       legislative and   and administrative
                                               administrative procedures, which caused delays in bringing new positions online.

                       The
                       The costs
                              costs that
                                       that the
                                              the State
                                                  State agency
                                                        agency charged to to the
                                                                             the pan flu
                                                                                      flu award
                                                                                          award were in three major categories:
                                                                                                                     categories:
                       compensation           costs; contract  costs; and other  costs, including
                       compensation costs; contract costs; and other costs, including travel      travel expenses, supplies,
                                                                                                                   supplies, and
                                                                                                                             and
                       conference
                       conference costs. costs.
                                         Of 
     Of the
                                                      the $1,322,798
                                                          $1,322,798 that the State agency
                                                                                       agency charged to the award, $1,317,359
                                                                                                                     $1,317,359
                       complied
                       complied with   with Federal
                                               Federalcost
                                                        cost requirements.
                                                              requirements. The remaining $5,439 was not allowable.
                                                                                                              allowable.
Page 2 – Thomas R. Frieden, M.D., M.P.H.


Specifically, $4,753 should have been charged to another CDC award, and $686 was not
supported by the required documentation.

We recommend that the State agency amend the final pan flu financial status reports to reverse
the $4,753 incorrectly charged to the pan flu award and to refund the $686 that lacked required
documentation.

In comments on our draft report, the State agency concurred with our findings and
recommendation.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2684 or through e-mail at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-08-01500.


Attachment


cc:
RADM W. Craig Vanderwagen, M.D.
Assistant Secretary for
  Preparedness and Response
 /.. ~ \:"i:IlV(lr.f
                           DEPARTMENT OF
                           DEPARTMENT OF HEALTH
                                         HEALTH&&HUMAN
                                                 HUMAN SERVICES
                                                       SERVICES                                                     OFFICE
                                                                                                                    OFFICEOF
                                                                                                                           OFINSPECTOR
                                                                                                                              INSPECTOR GENERAL
                                                                                                                                        GENERAL

iõJ/~I~-fL
'(,.
                                                                                                                    Offce
                                                                                                                    OfficeofofAudit
                                                                                                                    Region1

                                                                                                                    Region
                                                                                                                    John
                                                                                                                    John F.
                                                                                                                           I.
                                                                                                                              AuditServices

                                                                                                                          F. Kennedy
                                                                                                                                    Services

                                                                                                                             Kennedy Federal
                                                                                                                                      Federal Building
                                                                                                                                              Building
                                                                                                                    Room
                                                                                                                    Room 2425
                                                                                                                           2425
                                                                                                                    Boston,
                                                                                                                    Boston, MA
                                                                                                                             MA02203
                                                                                                                                 02203
                                                                                                                    (617) 565-2684
                                                                                                                    (617) 565-2684
                                                                    JUN 25
                                                                    JUN 25 2009
                                                                            20


                       Report Number:
                       Report Number: AA-OI-08-01500
                                        -01-08-01 SOO



                       Wendy Davis, M.D.      M.D.
                       Commissioner of        of Health
                       Veml0nt
                       Vernl0nt       Department
                                Department of       of Health
                       108 Cherry Street
                       Burlington, Veffilont
                       Burlington,                   05401
                                          Vermont 05401

                                Davis:
                       Dear Dr. Davis:

                       Enclosed is
                       Enclosed      is the
                                         the U.S.
                                               U.S. Department
                                                       Deparment of      of Health
                                                                              Health and Human ServicesServices (HHS),
                                                                                                                (HHS), Office    ofInspector
                                                                                                                          Offce of Inspector
                       General     (OIG),     final   report     entitled
                       General (OIG), final report entitled "Review of       "Review          Vermont'sPandemic
                                                                                           ofVermonts      PandemicInfluenza
                                                                                                                      InfluenzaExpenditures
                                                                                                                                 Expenditures for
                       thePeriod
                       the  Period
                                 AugustAugust      31, 2005,
                                        31,2005, Through          Through
                                                         June 30,2008."          Junea 30,2008."
                                                                        We wil forward copy of 
     We will forward a copy of this report to
                       the HHS
                            HHS action
                                    action official        noted on
                                               offcial noted         onthe
                                                                         thefollowing
                                                                               following pagepage for
                                                                                                   for review
                                                                                                        review and
                                                                                                               and any
                                                                                                                    any action
                                                                                                                         actiondeemed
                                                                                                                                deemed necessary.
                                                                                                                                        necessary.

                       The HHSHHS action
                                       action official
                                                 official will      makefinal
                                                             wil make        final determination
                                                                                     determination as  as to
                                                                                                           to actions
                                                                                                              actions taken
                                                                                                                       taken on
                                                                                                                              onall
                                                                                                                                 all matters
                                                                                                                                     matters reported.
                                                                                                                                              reported.
                       We
                       We    request
                          request        that
                                  that you      you
                                           respond     respond
                                                   to this          to this
                                                           offcial within      official
                                                                          30 days from the within
                                                                                           date of 30 days from the date of this letter.
                                                                                                                                     letter. Your
                       response should present any comments or additional information                infonnation that you believe
                                                                                                                              believe may
                                                                                                                                       may have a
                       bearing on  on the
                                        the final determination.

                                 to the
                       Pursuant to  the Freedom
                                         Freedom ofInformation
                                                   ofInformation Act,
                                                                   Act, 55 U.S.C.
                                                                           U.S.C. §§ 552,
                                                                                      552, OIG
                                                                                           OIG reports
                                                                                                  reports generally
                                                                                                          generally are
                                                                                                                     are made
                       available to
                       available to the
                                     the public
                                         public to
                                                to the extent that information in the report is not subject
                                                                                                        subject to
                                                                                                                to exemptions
                                                                                                                   exemptions in
                           Act. Accordingly,
                       the Act.  Accordingly, this report wil
                                                           willbebeposted
                                                                    posted on
                                                                            on the
                                                                                the Internet
                                                                                     Internet at
                                                                                              at http://oig.hhs.gov.
                                                                                                 http://oig.hhs.gov.

                       If
                       If you have
                              have any
                                   any questions
                                       questions or comments about this report, please
                                                                                please do
                                                                                        do not hesitate to call me, or
                       contact George
                               George Nedder,
                                       Nedder, Audit Manager, at (617)
                                                                 (617) 565-3463
                                                                       565-3463 oror through
                                                                                     through e-mail at
                       George.Nedder@oig.hhs.gov.
                       George.Neddercmoig.hhs.gov. Please refer to report number A-OI-08-0     1500 in all
                                                                                   A-OI-08-01S00
                       correspondence.

                                                                                  Sincerely,

                                                                                ~A¡zJ~/I
                                                                                ~ArzJ~/
                                                                                  Michael 1. Armstrong t
                                                                                  Michael 1. Armstrong
                                                                                  Regional Inspector General
                                                                                  Regional
                                                                                   for Audit
                                                                                   for Audit Services


                       Enclosure
Page 2 – Wendy Davis, M.D.


Direct Reply to HHS Action Official:

Mr. Jerry Shingleton
Team Leader, Oversight and Evaluation
Procurement and Grants Office (MS E-14)
Centers for Disease Control and Prevention
2920 Brandywine Road, Room 1122
Atlanta, Georgia 30341
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF VERMONT’S
    PANDEMIC INFLUENZA
EXPENDITURES FOR THE PERIOD
 AUGUST 31, 2005, THROUGH
       JUNE 30, 2008




                    Daniel R. Levinson
                     Inspector General

                        June 2009
                      A-01-08-01500
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Centers for Disease Control and Prevention (CDC) provides funding to States, territories,
and certain large cities through cooperative agreements to improve preparedness and response
capabilities for bioterrorism and other public health emergencies. Beginning in 2005, Congress
appropriated funds specifically to upgrade capabilities to prepare for and respond to pandemic
influenza (pan flu). Through the existing cooperative agreements, CDC awarded $500 million in
pan flu funding in three phases:

   •   In Phase I (August 31, 2005, through August 30, 2006), awardees were to identify unmet
       needs and develop and exercise a pan flu preparedness plan and an antiviral drug
       distribution plan.

   •   In Phase II (August 31, 2006, through August 30, 2007), awardees were to complete and
       submit to CDC a work plan and progress reports and develop a pan flu exercise schedule.

   •   In Phase III (August 31, 2007, through August 9, 2008), awardees were to fill gaps
       identified in Phases I and II.

For each phase, CDC issued to awardees supplemental guidance setting forth the deadline for
submitting a budget application to CDC and the required activities. The supplemental guidance
also required awardees to submit interim and final financial status reports that summarized the
amount of funding awarded, spent, and unspent for each phase.

In Vermont, the Department of Health, Office of Public Health Preparedness (the State agency),
administers the pan flu award. The State agency received a total of $2,362,016 in pan flu
funding for the three phases.

OBJECTIVE

Our objective was to determine (1) the extent to which the State agency spent its pan flu funding
and (2) what types of costs it charged to the pan flu award and whether these costs complied with
Federal cost requirements.

SUMMARY OF RESULTS

As of June 30, 2008, the State agency had spent $1,322,798 of the $2,362,016 in pan flu funding
that it received from CDC. The unspent funds totaled $1,039,218, or 44 percent of the
cumulative awarded amount. The State agency attributed the unspent funds to delays in
receiving supplemental guidance and funding from CDC for Phases I and II and to Vermont’s
legislative and administrative procedures, which caused delays in bringing new positions online.

The costs that the State agency charged to the pan flu award were in three major categories:
compensation costs; contract costs; and other costs, including travel expenses, supplies, and
conference costs. Of the $1,322,798 that the State agency charged to the award, $1,317,359


                                                i
complied with Federal cost requirements. The remaining $5,439 was not allowable.
Specifically, $4,753 should have been charged to another CDC award, and $686 was not
supported by the required documentation.

RECOMMENDATION

We recommend that the State agency amend the final pan flu financial status reports to reverse
the $4,753 incorrectly charged to the pan flu award and to refund the $686 that lacked required
documentation.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency concurred with our findings and
recommendation. The State agency’s comments are included in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Funding for Pandemic Influenza Preparedness and Response Activities................1
              Vermont Office of Public Health Preparedness.......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope........................................................................................................................2
               Methodology ............................................................................................................2

RESULTS OF AUDIT...................................................................................................................3

          UNSPENT FUNDS .............................................................................................................3

          COSTS CHARGED TO AWARD ......................................................................................5
               Compensation Costs.................................................................................................5
               Contract Costs..........................................................................................................5
               Other Costs...............................................................................................................6

          RECOMMENDATION .......................................................................................................6

          STATE AGENCY COMMENTS........................................................................................6

APPENDIXES

          A – VERMONT’S PANDEMIC INFLUENZA FUNDS, BY CATEGORY


          B – STATE AGENCY COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Funding for Pandemic Influenza Preparedness and Response Activities

Since 1999, the U.S. Department of Health and Human Services, Centers for Disease Control
and Prevention (CDC), has provided funding to 62 jurisdictions (States, territories, and certain
large cities) through cooperative agreements to improve preparedness and response capabilities
for bioterrorism and other public health emergencies. Beginning in 2005, Congress appropriated
funds specifically to upgrade capabilities to prepare for and respond to pandemic influenza (pan
flu). Through the existing cooperative agreements, CDC awarded $500 million in pan flu
funding in three phases: 1

    •   In Phase I (August 31, 2005, through August 30, 2006), awardees were to identify unmet
        needs and develop and exercise a pan flu preparedness plan and an antiviral drug
        distribution plan.

    •   In Phase II (August 31, 2006, through August 30, 2007), awardees were to complete and
        submit to CDC a work plan and progress reports and develop a pan flu exercise schedule.

    •   In Phase III (August 31, 2007, through August 9, 2008), awardees were to fill gaps
        identified in Phases I and II.

For each phase, CDC issued to awardees supplemental guidance setting forth the deadline for
submitting a budget application to CDC and the required activities. The supplemental guidance
also required awardees to submit interim and final financial status reports (FSR) that summarized
the amount of funding awarded, spent, and unspent for each phase.

For the current cooperative agreement budget year (August 10, 2008, through August 9, 2009),
CDC has not provided any funding specifically for pan flu activities even though CDC requires
awardees to continue these activities. At the end of our fieldwork, CDC was still considering
awardees’ requests to carry forward unspent pan flu funds from Phases II and III into the current
budget year.




1
 CDC has cited to various authorities for the bioterrorism program and the pan flu supplement. Initially, CDC’s
grant announcements for the bioterrorism program provided that funding was authorized under sections 301(a),
317(k)(1)(2), and 319 of the Public Health Service (PHS) Act (42 U.S.C. §§ 241(a), 247b(k)(1)(2), and 247(d)).
Beginning in August 2005, CDC provided that funding was authorized under section 319C of the PHS Act (42
U.S.C. § 247d-3), which was subsequently repealed by the Pandemic and All-Hazards Preparedness Act, P.L. No.
109-417 (Dec. 19, 2006). The pan flu grant announcements and guidance do not consistently describe the statutory
authorizations, but the CDC grant award documents list sections 301(a), 317(k)(1)(2), and 319 of the PHS Act for
Phases I and II and sections 319(a) and 317(k) of the PHS Act for Phase III. CDC is currently relying on section
319C-1 of the PHS Act (42 U.S.C. § 247d-3a) for all of these grant awards.

                                                        1
Vermont Office of Public Health Preparedness

In Vermont, the Department of Health, Office of Public Health Preparedness (the State agency),
administers the pan flu award. The State agency received a total of $2,362,016 in pan flu
funding for the three phases.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine (1) the extent to which the State agency spent its pan flu funding
and (2) what types of costs it charged to the pan flu award and whether these costs complied with
Federal cost requirements.

Scope

We analyzed the State agency’s pan flu funding of $2,362,016 for Phases I through III and pan
flu expenditures of $1,322,798 incurred for the period August 31, 2005, through June 30, 2008.

We reviewed the State agency’s accounting system to determine how funds were recorded and
segregated and whether funds were spent for allowable activities and costs under Federal
requirements, the cooperative agreement, and the supplemental pan flu guidance. We limited our
review of internal controls to the process that the State agency used to claim pan flu funds.

We performed our fieldwork from May through October 2008 at the State agency in Burlington,
Vermont.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal regulations, the cooperative agreement, the supplemental
        pan flu guidance, pan flu budget applications, and the State agency’s accounting policies
        and procedures;

   •    reviewed the State agency’s chart of accounts, related account descriptions, and
        accounting records to gain an understanding of how the State agency accounted for its
        pan flu expenditures;

   •    reconciled the CDC-approved pan flu budget application for each phase to the State
        agency’s summary expenditure reports to determine the extent to which the State spent its
        pan flu funding;

   •    analyzed the State agency’s summary expenditure reports and reconciled all summarized
        costs to detailed transaction listings;




                                                2
    •    categorized expenditures as compensation transactions, contract transactions, or “other
         cost” transactions and:

             o traced a judgmental sample of compensation transactions to completed time
               certifications or approved timesheets,

             o reconciled all contract transactions to the CDC-approved pan flu expenditures and
               reviewed supporting documentation for contract deliverables, and

             o reconciled other cost transactions greater than $500 to supporting documentation;

    •    reconciled the State agency’s summary expenditure reports to the FSRs submitted to
         CDC as of June 30, 2008; and

    •    discussed our findings with CDC and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                            RESULTS OF AUDIT

As of June 30, 2008, the State agency had spent $1,322,798 2 of the $2,362,016 in pan flu
funding that it received from CDC. The unspent funds totaled $1,039,218, or 44 percent of the
cumulative awarded amount. The State agency attributed the unspent funds to delays in
receiving supplemental guidance and funding from CDC for Phases I and II and to Vermont’s
legislative and administrative procedures, which caused delays in bringing new positions online.

The costs that the State agency charged to the pan flu award were in three major categories:
compensation costs; contract costs; and other costs, including travel expenses, supplies, and
conference costs. Of the $1,322,798 that the State agency charged to the award, $1,317,359
complied with Federal cost requirements. The remaining $5,439 was not allowable.
Specifically, $4,753 should have been charged to another CDC award, and $686 was not
supported by the required documentation.

UNSPENT FUNDS

Federal regulations (45 CFR § 92.23(a)) require a grantee to charge to the award only those costs
that result from obligations of the funding period unless the awarding agency permits the grantee
to carry over unobligated balances into the subsequent funding period.

As of June 30, 2008, the State agency had not spent $1,039,218 of the $2,362,016 awarded for
pan flu activities. (See Appendix A.) Specifically:
2
 This amount represents the totals shown on the State agency’s final FSRs for Phases I and II, the interim FSR for
Phase III (as of May 2008), and the State agency’s summary expenditure reports through June 30, 2008.

                                                         3
    •    Phase I: CDC awarded $650,611. The State agency spent $490,611 during Phase I and
         carried forward, with CDC’s approval, $160,000 into Phase II.

    •    Phase II: CDC awarded $1,067,464, including the carryover from Phase I. The State
         agency spent $388,174 during Phase II and carried forward, with CDC’s approval,
         $679,290 into Phase III.

    •    Phase III: CDC awarded $1,483,231, including the carryover from Phase II. The State
         agency spent $444,013 and still had $1,039,218 in unspent funds as of June 30, 2008,
         40 days before Phase III ended. As of that date, the State agency planned to request
         CDC’s approval to carry forward into the current budget year any pan flu funds unspent
         at the end of Phase III.

State agency officials said that delays in receiving supplemental guidance and funding from
CDC for Phases I and II were a major factor contributing to the unspent funds. Because the
periods between the issuance of guidance and the award of funding were compressed, the State
agency may not have had adequate time to determine how best to spend the funds. The table
below shows the timing of the awards.

                                         Timing of Pan Flu Awards

                                                                      Budget
                                                 Guidance                                   Funds
                          Budget Year                               Application
                                                  Issued                                   Awarded 3
                                                                     Deadline

        Phase I       08/31/05–08/30/06           03/14/06            04/08/06              03/07/06

        Phase II      08/31/06–08/30/07           07/10/06           07/15/06 4             09/25/06

        Phase III     08/31/07–08/09/08           09/21/07            10/24/07              09/25/07

Congress appropriated pan flu funding in December 2005. CDC issued Phase I guidance to
awardees in March 2006, which was more than 6 months into the budget year. The State agency
received Phase II funding from CDC approximately 6 months after receiving the Phase I
guidance. In addition, the deadline for the Phase II budget application was only 5 days after the
State agency received new and more comprehensive pan flu guidance from CDC. As a result,
the State agency had little time to determine how best to allocate and spend the funds. For
example, the State agency originally budgeted approximately $300,000 in Phase II to buy
ventilators. However, after it received the funds, the State conducted a feasibility study and
determined that ventilators were not needed. With CDC’s approval, the State agency carried
these funds into Phase III and eventually redirected them to salaries.
3
 The “funds awarded” date represents the date of the original award. CDC project officers authorized the release of
funds on various subsequent dates contingent on the project officers’ review and approval of States’ detailed
budgets.
4
 Pursuant to “Public Health Preparedness and Response Cooperative Agreement AA154,” the initial budget
application deadline was July 15, 2006. CDC allowed States to submit revised Phase II spending plans until
August 31, 2006.

                                                         4
According to State agency officials, the unspent pan flu funds were also attributable to
Vermont’s legislative and administrative procedures, which caused delays in bringing new
positions online. Because the legislature accepts budget proposals only in January of each year,
the State agency was not able to submit a proposed budget to the legislature that included pan-
flu-funded positions until January 2007, even though the State agency had received initial
funding for these positions in March (Phase I) and September (Phase II) 2006.

COSTS CHARGED TO AWARD

Federal cost principles applicable to States, now codified in regulations (2 CFR part 225, “Cost
Principles for State, Local, and Indian Tribal Governments,” Appendix A) (Office of
Management and Budget Circular A-87), establish principles for determining the allowability of
costs. These principles state that to be allowable under Federal awards, costs must be necessary
and reasonable for the proper and efficient performance and administration of Federal awards,
must be allocable to Federal awards under the provisions of 2 CFR part 225, and must be
adequately documented.

The $1,322,798 that the State agency charged to the pan flu award consisted of compensation
costs; contract costs; and other costs, including travel expenses, supplies, and conference costs.
Although $1,317,359 of these costs complied with Federal cost requirements, the remaining
$5,439 did not.

Compensation Costs

The State agency charged $885,130 to the pan flu award for compensation costs (salaries, fringe
benefits, and related indirect costs). Of the 194 individuals whose compensation costs were
charged to the award, 41 were specifically identified in the State agency’s CDC-approved pan flu
award. These State employees appropriately allocated their time to developing and organizing
pan flu activities. Their compensation costs, which totaled $687,399, were properly supported
by signed and approved timesheets or time certifications and were allowable under the award.

Most of the remaining 153 individuals, whose compensation costs charged to the award totaled
$197,731, were not State employees but individuals (police officers, firefighters, and emergency
health care professionals) who assisted, on a limited basis, in conducting drills and exercises
required under the pan flu award. Their compensation costs were generally charged hourly.
These compensation costs were reasonable and properly supported and therefore were allowable
under the award.

Contract Costs

The State agency charged $290,472 to the pan flu award for four contractual agreements to assist
the State agency in meeting pan flu award requirements in Phases I and II. These agreements
specified deliverables such as:

   •   developing planning templates for towns and municipalities that focused on identifying
       and maintaining functions that would be critical in a pan flu outbreak;




                                                 5
   •   providing technical assistance to towns and municipalities on how to complete the
       templates and develop pan flu response plans;

   •   collecting and presenting town and municipality pan flu response plans to the State
       agency;

   •   hiring a State Emergency Medical Services Unit Medical Advisor to support the
       Statewide Emergency Management System (EMS) and to conduct EMS pandemic
       preparedness activities, such as developing EMS-related pan flu plans and documents;
       and

   •   developing and coordinating pan flu exercises.

The contract costs charged to the pan flu award were properly documented and supported by the
contract deliverables and therefore were allowable under the award.

Other Costs

The State agency charged $147,196 to the pan flu award for other costs, such as employee travel,
rental fees associated with pan flu conferences, lab equipment, and supplies. Of the $147,196,
$141,757 was properly documented and allowable under the award. However, $5,439 was
unallowable. Specifically, the State agency charged four transactions totaling $4,753 to the pan
flu award that should have been charged to another CDC cooperative agreement. A fifth
transaction, in the amount of $686, was unallowable under Federal requirements and the terms of
the cooperative agreement because the State agency lacked documentation to support it.

RECOMMENDATION

We recommend that the State agency amend the final pan flu FSRs to reverse the $4,753
incorrectly charged to the pan flu award and to refund the $686 that lacked required
documentation.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency concurred with our findings and
recommendation. The State agency also requested that we revise its statement about Vermont’s
budget process to more accurately reflect the process for establishing new positions. We revised
our final report as requested.

The State agency’s comments are included in their entirety as Appendix B.




                                               6
APPENDIXES
                                                            APPENDIX A



      VERMONT’S PANDEMIC INFLUENZA FUNDS, BY CATEGORY
                   August 31, 2005–June 30, 2008


      Category           Total Awarded   Total Spent   Difference

Personnel                  $422,757       $453,210       $(30,453)
Fringe benefits             126,829        105,110          21,719
Equipment                   304,020          9,560        294,460
Supplies                    136,320         14,637        121,683
Travel                       19,673         54,339        (34,666)
Other                       432,590         68,661        363,929
Contracts                   688,025        290,472        397,553
  Total direct costs     $2,130,214       $995,989     $1,134,225
  Total indirect costs      231,802        326,809        (95,007)
   Total award           $2,362,016      $1,322,798    $1,039,218
                                                                                        APPENDIX B
~.vERMONT
State ofVermont                                                                          Agency ofHuman Services
Department of Health                         [phone]   802-863-7280
Office of the Commissioner                   [fax]     802-951-12 75
108 Cherry Street                            [tdd]     800-464-4343
Burlington, VI' 05401
healthvermont,gov

  April 27, 2009

  Michael J. Armstrong
  Regional Inspector General for Audit Services
  Office of Inspector General
  John F. Kennedy Federal Building
  Boston, MA 02203

  Report Number: A-Ol-08-01500

  Dear Mr. Armstrong:

  We have received and reviewed your draft audit report, "Review of Vermont's Pandemic Influenza
  Expenditures for the Period August 31, 2005, Through June 30, 2008."

  We appreciate your careful review of our pandemic flu program. Your staff were thorough and
  thoughtful in their review of the expenditures and related policy issues. We were pleased to note that
  your office was able to confirm that, with two exceptions, our program expenditures of $1,322,798
  complied with Federal cost requirements and were allowable under the award.

 We appreciate the careful description of how the federal and State decision-making processes have an
 impact on spending patterns. In relation to the State process, we feel that our statement about
 Vermont's budget process at the top of page 5 may well give a misleading impression that the only
 barrier to prompt implementation is due to the legislative process. In fact, the legislature does allow
 for alternative methods of establishing new positions, although any method of establishing positions
 can be cumbersome and time-consuming. It would be more accurate if the first sentence said:
 "According to Vermont officials, the unspent pan flu funds were also attributable to Vermont's
 legislative and administrative procedures which caused delays in bringing positions online."

 We agree with your findings about the two areas of unallowable costs. The four payments totaling
 $4,753 will be reduced from our reported pan flu expenditures and charged instead to the appropriate
 federal grant. We will also transfer the miscoded payment of $686 out of our reported costs for pan
 flu.

 We have no other concerns about the report.

  Sincerely,

      ~~
                                                                                                   .i
 Wendy S. Davis, MD
 Commissioner
